W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-457

Enco Systems, Inc.

DaVincia, LLC

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Dennis Abdelnour

Date:

10/4/21

(Type or print) Name

Digitally signed by: Dennis Abdelnour
DN: CN = Dennis Abdelnour email = dabdelnour@honigman.com C = US OU = Honigman
Date: 2021.10.01 14:53:19 -05'00'

Dennis J. Abdelnour
Mr.

Ms.

Mrs.

Firm

Honigman LLP

Address

155 North Wacker Drive, Suite 3100

City & State

Chicago, Illinois

Phone

312-701-9300

Miss

Zip 60606
Email dabdelnour@honigman.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Bradley L. Smith, Endurance Law Group PLC

cc:

